                    U.S. DEPARTMENT OF ENERGY

                   OFFICE OF INSPECTOR GENERAL




                   REPORT ON INSPECTION OF AN

              INTELLIGENCE WORK-FOR-OTHERS PROJECT

                 AT THE IDAHO OPERATIONS OFFICE




   The Office of Inspections wants to make the distribution of
   its inspection reports as customer friendly and cost
   effective as possible. Therefore, we are making this report
   available electronically through the Internet at the
   following alternative addresses:

             Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

        Department of Energy Headquarters Anonymous FTP
                       vml.hqadmin.doe.gov

   We are experimenting with various options to facilitate audit
   report distribution. Your comments would be appreciated and
   can be provided on the Customer Comment Form attached to the
   Inspection Report.




Report No.: DOE/IG-0367                    Office of Inspections
Date Issued: March 16, 1995                Washington, DC 20585
                   REPORT ON INSPECTION OF AN
              INTELLIGENCE WORK-FOR-OTHERS PROJECT
                 AT THE IDAHO OPERATIONS OFFICE


                        TABLE OF CONTENTS

                                                          Page
I.    PURPOSE AND OBJECTIVES .............................     1

II.   SCOPE AND METHODOLOGY ..............................     2

III. SUMMARY RESULTS OF INSPECTION ......................      3

IV.   BACKGROUND .........................................     6

V.    RESULTS OF INSPECTION ..............................     8

      PROCUREMENT AND CONTRACT MANAGEMENT

      DOE NEEDS CONSOLIDATED GUIDANCE ON INFORMATION
        TO BE INCLUDED IN WORK-FOR-OTHERS APPROVAL
        PACKAGES .........................................     8

      PROJECT FILES WERE NOT COMPLETE .................... 18

      DIRECTED SUBCONTRACTING ............................ 21

      COMPETITION REQUIREMENTS NOT DOCUMENTED ............ 23

      FINANCIAL MANAGEMENT

      PERFORMING WORK IN THE ABSENCE OF FUNDING .......... 25

      REQUIRED USE OF ON-LINE TRANSFER PAYMENTS FOR
        WORK-FOR-OTHER FEDERAL AGENCIES BILLINGS ......... 28

      NOTED INTERNAL CONTROL WEAKNESSES .................. 30

      INSUFFICIENT INVOICE DETAIL ........................ 32
                    REPORT ON INSPECTION OF AN
               INTELLIGENCE WORK-FOR-OTHERS PROJECT
                  AT THE IDAHO OPERATIONS OFFICE


                            TABLE OF CONTENTS

                                                             Page

      SECURITY MANAGEMENT

      INTELLIGENCE ACTIVITY IN CONJUNCTION WITH
        FOREIGN TRAVEL ................................... 34

      USE OF ADDITIONAL SECURITY PROCEDURES FOR THE
        PROTECTION OF CLASSIFIED INFORMATION ............. 37

      AVAILABILITY OF TRAINING ON EXECUTIVE
        ORDER 12333 AND THE DOE PROCEDURES
        FOR INTELLIGENCE ACTIVITIES ...................... 42

      CLASSIFICATION OF INFORMATION REGARDING THE
        ASSOCIATION OF THE CUSTOMER AGENCY
        WITH INTELLIGENCE ACTIVITIES ..................... 45
RELEASE OF CLASSIFIED RESTRICTED DATA
  INFORMATION TO AN EMPLOYEE OF ANOTHER
  GOVERNMENT AGENCY ................................ 47

                          #=1
                   U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                      OFFICE OF INSPECTIONS
                      WASHINGTON, DC 20585


                   REPORT ON INSPECTION OF AN
              INTELLIGENCE WORK-FOR-OTHERS PROJECT
                 AT THE IDAHO OPERATIONS OFFICE



I.   PURPOSE AND OBJECTIVES

     The Department of Energy's (DOE) Office of Inspector
General (OIG) is conducting a series of inspections of
intelligence and special access program work for other
Federal agencies' projects. The purpose of this
inspection, therefore, was to review a selected classified
intelligence work-for-others (WFO) project.

The primary objectives of this inspection were to
determine:

     1.   the financial integrity and compliance with laws and
regulations of the WFO project; and

     2.   DOE management effectiveness and controls regarding
the WFO project.

     As part of these objectives, we attempted to determine
whether DOE managers of this WFO project were:

     o    properly managing the financial aspects of the WFO
project (e.g., fund receipt, expenditures for specific
programs or services, reports and schedules);

     o    properly establishing and operating internal control
systems over accounting, financial reporting, and
transaction processing; and

     o    controlling for fraud, waste, or abuse in the WFO
project's operations.
II. SCOPE AND METHODOLOGY

     The scope for the series of WFO inspections being conducted
by the OIG includes:

     1.   Special access program (SAP) WFO projects which are by
definition classified. SAPs can be established under
          Executive Order 12356, "National Security Information,"
to protect particularly sensitive information. For
this inspection, we excluded a small number of very
sensitive intelligence related SAP WFO projects from
consideration;

     2.   Other classified intelligence WFO projects, including
those which require access to sensitive compartmented
information; and

     3.   Unclassified intelligence WFO projects.

     Our scope resulted in a universe of 401 projects initially
identified to us by Headquarters offices. We had
previously reviewed 20 of these projects in some detail.
From the adjusted universe of 381 projects, we selected a
classified intelligence WFO project at the Idaho National
Engineering Laboratory (INEL) for this inspection.

     Because of the sensitive nature of this WFO project, we do
not refer to the specific customer agency associated with
this project.

     In conducting the inspection, we obtained information from
the following DOE Headquarters Offices: Assistant Secretary
for Human Resources and Administration; Assistant Secretary
for Policy, Planning and Program Evaluation; Chief
Financial Officer; and Office of Nonproliferation and
National Security.

     During the course of our field work, we visited DOE
Headquarters, the DOE's Idaho Operations Office (IDO), and
INEL. Westinghouse Idaho Nuclear Company (WINCO) is the
management and operating (M&O) contractor that manages this
work-for-others project. We performed a review of
financial management, including tests of transactions
recorded during the period September 1991 through
October 1992. We reviewed all transactions over $30,000
that were recorded during this period. Additionally, we
randomly selected the month of June 1992 for detailed
financial testing, reviewing each recorded transaction

during that month. We also reviewed program management,
procurement and contract management, and security
management.

     This inspection was conducted in accordance with Quality
Standards for Inspections issued by the President's Council
on Integrity and Efficiency.


III. SUMMARY RESULTS OF INSPECTION

     We found that additional DOE guidance and attention was
needed to improve management efficiency and controls for
this WFO project. Selected findings resulting from our
inspection are summarized below.

     o    Some aspects of DOE's management of WFO projects have
been the subject of criticism by requesting agencies
and a topic of discussion at Congressional hearings.
Based on our series of WFO inspections, we believe
that, when a requesting agency is dissatisfied with
some aspects of the Department's management of its WFO
project(s), a contributing factor is frequently a lack
of initial specificity regarding the expectations and
responsibilities of each agency. For example,
requesting agencies may not correctly understand which
agency's procedures are to be followed in the areas of
general contract administration, financial
administration, and project oversight. In our
opinion, consolidated guidance should be developed to
clarify the information to be provided in WFO approval
packages.

o    During our inspection, we noted that the customer
agency paid DOE Idaho Operations Office's monthly
invoices using a U.S. Treasury check, rather than
on-line transfer payments, as encouraged by the U.S.
Department of Treasury. We also noted in our previous
review of selected intelligence and special access
program work-for-others projects that customer
agencies made payments by U.S. Treasury checks. An
official with the U.S. Treasury Department verified
that DOE, and DOE contractors that have been assigned
billing responsibility, can accept On-line Payment and
Collection System (OPAC) payments from other Federal
agencies with on-line transfer payment capabilities.



          We believe that DOE should require other Federal
customer agencies with this capability to provide
payments using OPAC. The use of on-line transfer
payments would make the payment process faster, and in
our view, save administrative time and expense.

     o    We found that WINCO and the predecessor M&O contractor
had improperly allowed the customer agency, as early
as Fiscal Year (FY) 1980, to designate a subcontracted
consultant for use on the inspected WFO project. This
action was contrary to guidance in DOE Order 4300.2A,
"NON-DEPARTMENT OF ENERGY FUNDED WORK," which
prohibits the requesting agency from designating
either the subcontractor to be used or the portion of
the work to be subcontracted.

          Subcontracts (or modifications) with this consultant
continued to be executed through FY 1991, since they
did not require IDO approval. IDO subsequently
lowered its approval threshold for WINCO subcontracts
from $30,000 to $5,000. WINCO's proposed FY 1992
subcontract modification, which exceeded the new
threshold, was not executed because IDO would not
approve the "directed subcontract."

     o    We found that certain classified portions of the
inspected WFO project involved the use of security
procedures usually only permitted with a special
access program. The security procedures in use
included the use of a separate "Briefing/Debriefing
Statement" which, as part of the indoctrination
acknowledgment, referred to "this special access
program information." A by-name access roster was
also maintained by the security officer.

          We believe the use of additional security procedures,
including special statements and access lists, was not
consistent with normal DOE security procedures. In
our opinion, an unofficial SAP had been created with
the knowledge of certain IDO officials, but without
proper written authority as required by Executive
Order 12356, "National Security Information."

     o    We found that IDO and WINCO program and security
management officials concerned with this intelligence
project had not received required training on the
provisions of Executive Order 12333, "United States
Intelligence Activities," or the "Department of Energy
Procedures for Intelligence Activities." We also
noted that the then DOE Office of Intelligence was
planning a program of centralized training for a
relatively large number of personnel from several
sites. In our view, this may not be the most
cost-effective means of training, and may cause
additional delays in providing the required training.

     o    We found that WINCO had incurred costs of
approximately $23,000 on the inspected WFO project in
October 1988, before funding was made available in
November 1988. In December 1991, WINCO continued work
after funds were exhausted and incurred costs of
approximately $18,000 prior to additional funds being
transmitted to WINCO in January 1992. These actions
were contrary to the then DOE Order 2200.6, "FINANCIAL
ACCOUNTING," Change 2, Chapter IX, "REIMBURSABLE WORK,
REVENUES, AND OTHER COLLECTIONS," and its predecessor
DOE Order 2100.10A, "FINANCIAL POLICY AND PROCEDURES
FOR REIMBURSABLE WORK," which stated that no work
should commence and no costs were to be incurred until
a written reimbursable agreement had been received and
such document was approved and accepted as defined in
DOE Order 4300.2A (predecessor to 4300.2B).

     In addition to the findings above, we also found incomplete
IDO project files; a lack of documentation on competition
requirements; internal control weaknesses; insufficient
detail on billings submitted to customers; intelligence
activity, in conjunction with foreign travel, that was
technically not in compliance with Executive Order 12333;
unclassified documents in both the DOE and WINCO files
that, when combined, became classified because of the
association of information; and release of classified
restricted data information to an employee of another
Government agency without having received the required
certification of security clearance access.

     The findings and related recommendations, together with
management comments, are discussed in more detail in
Section V., of this report.


IV.   BACKGROUND

     The DOE performs work-for-other Federal agencies either
directly or through DOE's management and operating
contractors. In this manner, the other Federal agencies
can take advantage of DOE's vast and unique research
capabilities. DOE also benefits through better and more
continuous use of its facilities and personnel.

     The work-for-other Federal agencies program in DOE is
sizeable. According to the Work for Others Summary Report,
issued in June 1993 by the Acting Assistant Secretary for
Human Resources and Management, the Fiscal Year 1992
funding for DOE Federal agencies work-for-others program
was $1.7 billion. DOE's FY 1992 enacted budget authority,
as reported in the DOE Fiscal Year 1993 Congressional
Budget Request, was $19.0 billion.

     Most WFO work within DOE is authorized under the Economy
Act of 1932 (Act). The Act allows materials, supplies,
facilities, and personnel of one agency to be used by
another. The Act authorizes an agency to place orders for
goods and services, subject to availability, with another
government agency when the head of the ordering agency
determines that it is in the best interests of the
government to do so and that the ordered goods or services
cannot be provided by contract as conveniently or cheaply
by a commercial enterprise.

      Review, Acceptance, and Monitoring of Non-DOE Funded Work

     DOE Order 4300.2A, "NON-DEPARTMENT OF ENERGY FUNDED WORK,"
dated December 19, 1986, established DOE policy,
responsibilities, and procedures for review, acceptance,
and monitoring of non-DOE funded work performed by the
Department's contractors. The principal application was to
management and operating contracts under which most of the
non-DOE funded work is performed.

DOE Order 4300.2B, was issued as a replacement order on
July 16, 1991. The two primary changes to the previous
order were: (1) a sample statement was provided for other
Federal agencies use which stated that the submitted
agreements are pursuant to the authority of the Economy Act
of 1932; and, (2) a paragraph stating that all
intelligence-related non-DOE funded work proposals would be
reviewed and approved by the Director of the then Office of
Intelligence, for conformance with Executive Order 12333.

      Financial Accounting for Reimbursable Work

     DOE Order 2100.10, dated October 17, 1983, was entitled
"REIMBURSABLE (FUNDS-IN) POLICY AND PROCEDURES." A
successor DOE Order, 2100.10A, dated August 15, 1988, was
entitled "FINANCIAL POLICY AND PROCEDURES FOR REIMBURSABLE
WORK." The Order established financial policies and
procedures for reimbursable work, one category of which is
work-for-others. These policies and procedures applied to
DOE and its management and operating contractors when
entering into a WFO agreement and subsequently incurring,
recording, and billing WFO costs.

On May 10, 1990, Change 2 to DOE Order 2200.6, "FINANCIAL
ACCOUNTING," was issued. Change 2 cancelled DOE Order
2100.10A and incorporated the WFO financial policies and
procedures into DOE Order 2200.6, "FINANCIAL ACCOUNTING,"
Chapter IX, "REIMBURSABLE WORK, REVENUES AND OTHER
COLLECTIONS." DOE Order 2200.6 was reissued on January 7,
1993, as 2200.6A. DOE policy is to accept reimbursable
agreements for its goods and services and to perform WFO on
a reimbursable basis, provided legal and regulatory
authority to perform the reimbursable work exists and the
Department is capable of complying with the requirements of
the legal authorities relied on. Furthermore, WFO must not
impede the primary functions and responsibilities of the
performing activity, and budgetary resources for performing
reimbursable work must be available from the customer.

DOE's Authority to Classify Information

DOE uses separate authorities for classification of (1)
restricted data and formerly restricted data and (2)
national security information.

Restricted data and formerly restricted data is classified
by the Secretary of Energy and delegatees under authority
of the Atomic Energy Act of 1954, as amended. For this
category of classified information, DOE has not established
procedures to create or approve SAPs.

National Security Information (NSI) is classified under the
authority of Executive Order 12356, "National Security
Information." For this category of classified information,
the Executive Order authorizes the agency head to create
SAPs to protect particularly sensitive information. SAPs
may be created by the Secretary of Energy, in which case
the Secretary must establish the security procedures to be
used by the special access program. In the case of
intelligence activities, including special activities (but
not including military operational, strategic and tactical
programs), the function is exercised by the Director of
Central Intelligence (DCI). In this case, the DCI must
establish the security procedures to be used by the SAP.
DOE also has not established procedures to create or
approve SAPs for this category of classified information.

Sensitive compartmented information is classified
information concerning or derived from intelligence
sources, methods, or analytical processes, which is
required to be handled within formal access control systems
established by the DCI pursuant to the special access
provisions of Executive Order 12356.

WFO Project Data

As mentioned in Section II., Scope and Methodology, we
selected a WFO project at INEL for this inspection. This
particular project at INEL is worked and administered by
the Westinghouse Idaho Nuclear Company. WINCO, one of
the management and operating contractors at INEL, manages
the Idaho Chemical Processing Plant, where the work for
this project takes place.

EG&G Idaho, one of the other M&O contractors, processes the
WINCO payroll. Also, WINCO uses EG&G Idaho personnel for
certain types of labor, such as equipment operators and
technicians. WINCO also makes some small purchases through
an automated EG&G Idaho purchasing system.


V.   RESULTS OF INSPECTION

     DOE NEEDS CONSOLIDATED GUIDANCE ON INFORMATION TO BE
INCLUDED IN WORK-FOR-OTHERS APPROVAL PACKAGES

     Based on our series of WFO inspections, we believe that,
when a requesting agency is dissatisfied with some
aspects of the Department's management of its WFO
project(s), a contributing factor is frequently a lack of
initial specificity regarding the expectations and
responsibilities of each agency. For example, requesting
agencies may not correctly understand which agency's
procedures are to be followed in the areas of contract
administration, financial administration, and project
oversight. In our opinion, consolidated guidance should be
developed to clarify the information to be provided in WFO
approval packages.
     Enabling Legislation and Guidance

     Most DOE work-for-others is performed under provisions of
the Economy Act of 1932, as amended. Under the Economy
Act, an agency (the requesting agency) may place orders
with any other agency for supplies or services that the
other agency (the servicing agency) may be in a position or
equipped to supply, render, or obtain by contract. The
head of the requesting agency, or designee, must determine
that it is in the Government's interest to do so.

The Federal Acquisition Regulations (FAR), codified in
Title 48, Code of Federal Regulations, prescribes policies
and procedures applicable to interagency acquisitions under
the Economy Act. FAR Subpart 17.504(d) states:

"(2) The requesting agency shall also be
responsible for furnishing other assistance that
may be necessary, such as providing special
contract terms or other requirements that must
comply with any condition or limitation
applicable to the funds of the requesting
agency.

"(3) The servicing agency is responsible for
compliance with all other legal or regulatory
requirements applicable to the contract
including (i) having adequate statutory
authority for the contractual action . . ."

     The FAR also states that any format agreeable to both the
requesting and servicing agency is acceptable for a
reimbursable agreement provided specified information is
included.

     Current Department of Energy Guidance

     Guidance on the review, acceptance, and management of
interagency acquisitions when DOE is the servicing agency
is principally found in two DOE orders. A "brochure"
issued by the Department also provides policy-type
guidance.

     DOE Order 2200.6A, "FINANCIAL ACCOUNTING," Chapter IX,
"REIMBURSABLE WORK, REVENUES, AND OTHER COLLECTIONS,"
Paragraph 2.b.(12), dated January 7, 1993, defines an
interagency agreement as a written agreement for DOE to
furnish specific goods or accomplish a specific task in
support of another Federal agency's mission. Per the
Order, the interagency agreement is to provide funding,
billing, and payment data in support of the reimbursable
work. Attachment IX-1 to DOE Order 2200.6A, which contains
guidelines for the review and acceptance of agreements by
DOE officials, also specifies information the requesting
agencies are to provide.

     DOE Order 4300.2B, "NON-DEPARTMENT OF ENERGY FUNDED WORK,"
dated July 16, 1991, states that DOE facilities and
resources may be made available for the performance of work
for non-DOE entities. Furthermore, this work can only be
undertaken when a determination of certain criteria has
been made and certified in writing by the responsible
contracting officer. Attachment 3 to the Order, which
provides minimum standards for review, acceptance, and
monitoring of non-DOE funded work, lists information
required from the requesting agencies. The Order states
that the requirements are in addition to DOE Order 2200.6
requirements and guidelines.

     A brochure entitled "Department of Energy Work for Other
Federal Agencies," DOE/MA-0385, was issued by the
Department in October 1989. The stated purpose of the
brochure is to give other Federal agencies a basic
understanding of the guidelines and requirements governing
the acceptance and execution of work-for-others projects.
We believe that the brochure contains areas of explicit
policy, or policy-type, guidance. The brochure addresses
information to be included in the interagency agreement
concerning: (1) project scope, financial requirements, and
schedule and cost performance monitoring; (2) patent rights
allocation; (3) security classification guidance and
security requirements; (4) environmental, safety, and
health requirements compliance; (5) subcontracts principles
and criteria; and (6) ultimate disposition of acquired
equipment. We believe such information is essential to
ensure there is a common understanding between the
requesting agency and DOE officials on the roles and
responsibilities of each in completing work on the WFO
project.

     Congressional Hearing on Work-for-Others

     On July 30, 1993, the Inspector General, Department of
Energy, and the Deputy Inspector General, Department of
Defense (DOD), testified before the Senate Committee on
Governmental Affairs, Subcommittee on Oversight of
Government Management, on the use of interagency purchases.

The DOE Inspector General stated:

"Deficiencies in implementing of the Work for
Others Program have been reported by DOE to the
President as part of the Federal Managers'
Financial Integrity Act (FMFIA) process. This
material internal control weakness was first
reported in 1989 and addressed the need to
ensure that tasks accepted as part of the Work
for Others Program are appropriate for DOE to
perform. DOE's 1992 FMFIA report indicated that
the controls over the Work for Others Program
had been strengthened, primarily by a revised
DOE Order establishing minimum requirements for
information to be provided by sponsoring
organizations prior to acceptance of the work.
In addition, DOE reported the formation of a
working group to review reimbursable work
DOE-wide."

     The DOD Deputy Inspector General stated:

"Essentially, DoD activities that procured
support services through interagency agreements
with DoE, . . . relied on those organizations to
perform technical and financial administration,
oversight of the work, and general contract
administration in accordance with applicable DoD
standards. . . . DoD activities did not
sufficiently protect themselves when they issued
the Economy Act orders by adequately defining
what was expected in the areas of contract
administration, technical services, detailed
progress reports, and cost data to be provided
to DoD."
               *       *       *       *       *

"The DoD activities did not always receive or
request any progress reports or cost data. . . .
As a result, DoD program activities could not
verify that detailed progress reports were
received on a regular basis, that deliverables
met requirements, and that vouchers were
accurate, reasonable, and allowable."

                   *       *       *       *       *


"We recommended guidance be placed in a DoD
Instruction to require that orders issued
include provisions for the submission of
detailed progress reports and cost data; the
performance of closeout audits, if needed; and
reviews by DoD program officials to verify that
amounts billed by other Federal agencies are
proper for payment. The Deputy Under Secretary
of Defense (Environmental Security) agreed to
develop a model interagency agreement for future
use."

The expectation that DOE performs general contract
administration, financial administration, and oversight of
DOD work-for-others projects in accordance with applicable
DOD standards is not consistent with DOE policies and
procedures. DOE Order 4300.2B establishes DOE policy,
procedures, and responsibilities for authorizing and
administering non-DOE funded work, including WFO. This
Order applies to all Departmental elements and contractors
performing work for the Department. The Order generally
provides that work-for-others will be performed in
accordance with DOE policies and procedures. For example:

     o    DOE places reliance on DOE approved contractor systems
and procedures for implementation of DOE policy and
control of non-DOE funded work projects (including
general contract administration);

     o    DOE's Chief Financial Officer develops Departmental
accounting and financial policy and standards for work
performed for non-DOE entities (i.e., financial
administration); and

     o    Heads of DOE field elements are to assure that WFO
under their purview is protected in accordance with
DOE safeguards, security, and classification policies.

     As noted in the testimony cited above, DOD activities did
not always adequately define the level of progress and cost
detail DOD activities wanted DOE to provide. We agree that
there has been a lack of detail in financial reports
provided to customer agencies and we have, in previous
reports, made recommendations which address this problem.
We believe a lack of initial specificity regarding the
expectations and responsibilities of each agency in a WFO
project is frequently a contributing factor if the customer
agency's is dissatisfied with some aspects of DOE's
managements of its WFO project(s). Accordingly, we concur
with the DOD Deputy Inspector General's position that it is
essential for the agreement with a customer agency to
define what is expected in regard to contract
administration, technical services, detailed progress
reports, and cost data to be provided to the customer.

     Inspector General Reviews

     Inspector General reviews have identified some customer
agency concerns regarding DOE's management of WFO
projects. Discussion of several of these reviews follow:

     o    The DOD's Office of Inspector General issued Report
No. 93-042, "Allegations of Improprieties Involving
DOD Acquisition of Services Through the Department of
Energy," on January 21, 1993. DOD reviewed nine
interagency agreements placed with DOE and found that
several DOD required provisions were not included in
the agreements. These included: (1) a statement of
each agency's responsibilities for Government
furnished equipment, contract administration,
documentation, rights to data and software, and
contract audits; (2) any limitations that must be
complied with in the scope or amount of services or
supplies that may be procured; (3) a description of
the type of funds that will be used to fund supplies
or services ordered under the interagency agreement,
and whether advance payments are authorized or the
work will be performed on a reimbursable basis; (4) a
provision that provides a method for resolving
disputes between the two parties; (5) a description of
the methods for pricing and issuing orders and the
level of cost details to be provided by the servicing
activity that performs the work (the amount of
administrative charges to be assessed by the accepting
department or agency should also be identified); and
(6) a specified expiration date and provisions for
termination.

          We contacted DOD Office of Inspector General officials
to determine the status of Report No. 93D042
recommendations. On February 8, 1994, the Secretary
of Defense issued a policy memorandum that established
guidelines for issuance of Economy Act orders by DOD
activities to other Federal departments and agencies.

DOD is also revising DOD Instruction 4000.19,
"Interservice, Interdepartmental, and Interagency
Support." The revisions will expand guidance on
interagency agreements between DOD and other agencies,
including DOE. This guidance will incorporate the
policy guidance in the Secretary of Defense's
February 8, 1994, memorandum. The memorandum requires
the head of the DOD requesting activity, or designee,
to determine that the orders are in the best interest
of the Government.

     o    The DOE's Office of Inspector General issued Report
No. DOE/IG-0303, "Inspection of a Work for Others
Project at DOE Field Office Albuquerque," during
November 1991. A Memorandum of Understanding (MOU)
was executed by DOE and the Department of Army (Army),
the requesting agency, to provide an arrangement for
the conduct of a cooperative research and development
program intended to improve nonnuclear military
technology. A separate, though similar, MOU was
executed by DOE and DOD to provide an arrangement for
the conduct of a cooperative program of research and
development intended to bring about major improvements
in nonnuclear munitions technology. The inspected WFO
project was chartered under the MOU with the Army.
Since the Army MOU was silent on procedures for
handling classified documents and information, the
Army directed that DOD's classification policy, which
was spelled out in the DOD MOU, was to be followed for
this classified WFO project.

          As reported, we found that DOE security regulations,
in general, prescribed several procedures which
differed from those used by DOD and the Army. For
example, different nondisclosure agreements were to be
used; the policy on portion marking differed; and the
policy and specific records maintained to control and
reproduce secret documents differed. A Federal, or
contractor, employee could not simultaneously comply
with both sets of procedures. Complying with DOD and
Army procedures meant not complying with the DOE
procedures, which were required by DOE orders and the
M&O contract.

          DOE officials, in commenting on this report, agreed to
review DOE orders, the Department of Energy
regulations, and M&O contracts to see if they should
be revised to accommodate the security requirements of

customer agencies when DOE performs non-DOE funded
work. The officials further stated that MOUs with the
various DOD Services would be similarly reviewed.

     o    The DOE's Office of Inspector General issued Report
No. INS-O-90-01, "Inspection of Department of Defense
Environmental Restoration Work Managed by the Oak
Ridge Operations Office," on March 31, 1990. The DOD
Services had provided funds through various funding
accounts, including the Defense Environmental
Restoration Account (DERA), for environmental
restoration projects accepted by the Oak Ridge
Operations Office (ORO). The funds, a majority of
which came from DERA, were appropriated and authorized
for use during a fiscal year, or in the case of
long-term projects, for use during several fiscal
years.

          As noted in the report, DOD components did not
consistently identify funding sources for the accepted
projects. Nonetheless, some DOD components later
contacted ORO or the management and operating
contractor to determine the total funds, by type,
involved in the ORO environmental restoration
projects. Since neither ORO nor the M&O contractor
had a requirement or need for tracking funding sources
in their data bases, both ORO and the M&O contractor
expended considerable resources to respond to the DOD
requests.

          ORO management, in commenting on that report, stated
that they would continue working with DOD components
to resolve current problems. Management also stated
that future WFO approval packages should include
requirements to address existing problems.

     Review of IDO Documentation on the Inspected WFO Project

     While work on this WFO project was originally initiated in
1972, the project was reaccepted as a new WFO project in
1988. During our inspection at IDO, we reviewed the
available documents for this new WFO project. In reviewing
the documentation for funds accepted in November 1988, we
noted that several items required by the then DOE Order
2100.10A and/or DOE Order 4300.2A were not included in the
statement of work nor in other information provided by the
customer agency. Some items addressed in the DOE brochure
also were not included. Examples of these items follow:

     o     statement that the final execution will be completed
before the expiration of the period of availability
for obligation of the appropriations or funds
concerned;

     o     statement that the requestor commits to payment of a
sum of money to pay the full cost of the work
requested;

     o    statement specifying what capital equipment and real
property are to be procured and who will own the
property;

     o    provision for a DOE agreement reference number;

     o    identification of the total estimated cost of work or
services to be reimbursed;

     o    provision for a certification that goods or services
have been received;
     o    statement that the requestor agency will provide for
reimbursement to DOE for risks resulting from
termination and environmental cleanup;

     o    statement that DOE shall monitor the status of
individual reimbursable agreements to determine the
adequacy of funds as work progresses; and

     o    statement that title for specific technical components
is negotiable with the funding agency.

     IDO accepted this WFO project despite the lack of required
information. Without all required information, IDO could
not adequately review the WFO project before acceptance nor
adequately manage the WFO project after acceptance.

     Conclusion

     DOE guidance for a WFO approval package and the information
to be provided by the requesting agencies is found in
several different documents. Current DOE policies on the
minimum content of a WFO approval package are found in DOE
Order 2200.6A, Chapter IX, DOE Order 4300.2B, and the DOE
brochure on work-for-others.

         The provisions of the cited DOE orders apply to Departmental
     elements and contractors performing work for the Department.
Requesting agencies are not bound by, or may not even be
aware of, these provisions. As a result, important
specifications, such as the requesting agency's need for
data to track progress against cost and manpower schedules,
each agency's responsibilities for adjusting work plans and
funding data as work proceeds, and the requesting agency's
responsibility for determining the adequacy of technical
approach and deliverables, is often not included in the WFO
approval package.

     Based on our series of WFO inspections, we believe that,
when a requesting agency is dissatisfied with some
aspects of the Department's management of its WFO
project(s), a contributing factor is frequently a lack of
initial specificity regarding the expectations and
responsibilities of each agency. In our opinion,
consolidated guidance should be developed to clarify the
information to be provided in WFO approval packages.

     Recommendations

     We recommend that the Assistant Secretary, Human Resources
and Administration, in conjunction with the Chief Financial
Officer:

     1.   Develop consolidated guidance on what should be in a
WFO approval package so the roles and responsibilities
of all parties to executed agreements are clearly
specified. This guidance should consider the
description of roles and responsibilities as described
in DOE Order 4300.2B, DOE Order 2200.6A, Chapter IX,
and the DOE brochure on work-for-others.

     Officials from the Office of Assistant Secretary, Human
Resources and Administration (HR), concurred with the
recommendation. They further stated that, in an effort to
improve the quality of the WFO process, DOE Headquarters
and field representatives had recently conducted a
comprehensive review of DOE's WFO policy. Based upon the
review results, it was determined that many WFO
requirements were not based on laws or regulations but
rather mandated as a result of site specific concerns
identified during WFO internal and external reviews. The
team determined that changes to WFO policy were needed to
     ensure policies and procedures are not based on deficiencies
identified at individual sites. The revision effort is
being coordinated and implemented.
     They further stated that DOE recognized the need for
providing suggested methods for satisfying requirements and
providing guidance in areas not required by laws, etc. As
a result, a companion piece to the policy order is being
developed. This "WFO Implementation Guide" will provide
minimum information standards for performing the DOE review
and acceptance process. The standards provide the
information necessary to ensure adequate information is
required.

     Office of Chief Financial Officer officials stated that
they would provide comments to the Office of Organization
and Management (HR-6), "recommending that DOE 2200.6A
'Chapter IX, Reimbursable Work, Revenues, and Other
Collections,' Attachment 1, Guidelines for Development,
Review, and Acceptance of Agreements for Reimbursable Work
or Services by DOE Officials, be incorporated into the WFO
implementation guide. In a subsequent update to 2200.6A,
we will delete Attachment 1. We feel that these
initiatives are consistent with the intent of the
recommendation to improve management of WFO in the
Department."


     PROJECT FILES WERE NOT COMPLETE

     IDO's files for this WFO project lacked required
documentation. IDO officials were also not preparing a
comprehensive cross-reference to the actual location of
various project documents that were being maintained. As a
result, IDO was not fully complying with requirements on
documentation and project file maintenance.

     File Maintenance Requirements

     ID Order 4300.2B, dated February 12, 1990, implements IDO
policy, responsibilities, and procedures for authorizing
and administering non-DOE funded work. Paragraph
4.c.(6)(c) states that the Contracts Management Division
Director or Designee will maintain selected information on
each WFO project in sufficient detail to facilitate status
reports per DOE Order 4300.2A, Attachment 2 (now DOE Order
4300.2B).

     DOE/ID-10186 Rev. C, "Work for Other Guidelines," issued in
December 1992, provides additional IDO guidelines for
review and acceptance of WFO projects and for file content.
Paragraph 3.3 states that WFO project files will be
maintained throughout the life of the project by DOE-ID/SPB
(Special Programs Branch) and will be stored for 3 years
following close out of the project. Appendix K to the
Guidelines outlines the WFO Project File Content. The
content includes the areas of acceptance, funding, project
management plan, progress reports, miscellaneous, and
close-out.

      Lack of Complete Project Files

     When asked to provide IDO's project files for the inspected
WFO project, the IDO contracting officer stated that, in
the past, complete files, to include funding documents and
acceptances, were not maintained due to lack of file space.
The contracting officer further stated that the
responsibility to maintain the WFO files had been
transferred to the Special Programs Branch in late FY 1992,
in anticipation of the issuance of DOE/ID-10186 Rev. C.

     The IDO WFO Coordinator, who works in the Special Programs
Branch, assumed his present duties in August 1992. The WFO
Coordinator said that, due to a heavy workload, he was also
not maintaining official files for this project. The WFO
Coordinator agreed that the WFO project files needed to be
centralized in the Special Programs Branch to comply with
DOE/ID-10186 Rev. C.

     The IDO WFO Program Manager, who was assigned to the Office
of Assistant Manager for Energy Programs, had been
maintaining files for this WFO project. However, our
review disclosed that these files were also incomplete. We
noted that:

      o    two funding documents were not in the files;

     o     four funding document acceptances were not in the
files;

     o    the classified statement of work had not been in the
files until a copy was provided by the customer agency
on March 15, 1993;

     o     the WFO decision package was not maintained in the
files;

      o    all progress reports were not maintained in the files;
and
     o    the information specified by DOE Order 4300.2B,
Attachment 2, Part B, Items 3 through 8, was not
maintained in the files.

     The IDO WFO Program Manager stated that he was currently
managing this particular project along with thirty-six
other projects and, during the course of managing this
project, has been responsible for as many as fifty-five
projects. The WFO Program Manager stated that, due to time
constraints in managing the various projects, he had not
maintained complete project files.

     File Locations Not Cross-Referenced

     The then DOE Headquarters Office of Administration and
Management issued a report titled, "Work For Others
Management Review," to the then Idaho Field Office on
February 3, 1993, which contained a finding on WFO project
files. The finding stated that there was currently no
central point where intelligence WFO projects' project
files were stored and administered. Classified portions of
the projects were stored in several different areas while
unclassified portions were stored in other areas. During
our review, we further noted that IDO officials had not
prepared a comprehensive cross-reference to locations of
the various documents for this project.

Recommendations

We recommend that the Manager, Idaho Operations Office:

2.   Maintain complete files for all WFO projects to
include, at a minimum, all data specified by DOE
Orders 2200.6A and 4300.2B, including attachments.

     3.    For those WFO projects where it is not possible or
desirable to maintain the complete file at one
location, ensure that necessary project
cross-references are maintained which reflect the
actual location of any separately filed classified
documents.

     Idaho Operations Office management concurred with
Recommendations 2 and 3.


     DIRECTED SUBCONTRACTING

     We found that WINCO and the predecessor M&O contractor had
improperly allowed the customer agency, as early as Fiscal
Year 1980, to designate a subcontracted consultant for use
on the inspected WFO project. This action was contrary to
DOE Order 4300.2A guidance which prohibits the requesting
agency from designating either the subcontractor to be used
or the portion of the work to be subcontracted.
     Subcontracts (or modifications) with this consultant
continued to be executed through FY 1991, since they did
not require IDO approval. IDO subsequently lowered its
approval threshold for WINCO subcontracts from $30,000 to
$5,000. WINCO's proposed FY 1992 subcontract modification,
which exceeded the new threshold, was not executed because
IDO would not approve the "directed subcontract."

     Discussion

     The WINCO Manager, Procurement and Administrative Services,
stated that EG&G Idaho had contracting responsibility for
WINCO's predecessor during Fiscal Years 1980 - 1983.
Accordingly, EG&G Idaho had procured the specified
consultant services for that time frame. WINCO assumed the
M&O contract in FY 1984, and had contracted directly with
the consultant since that date. The yearly subcontract
provided funds for travel and labor expenses for the
consultant to participate as a member of a customer agency
sponsored panel dealing with classified research.

     WINCO's project files contained several modifications to
Purchase Order Number 202492 (previously Purchase Order
Number 206797). The latest, Modification No. 14, was
executed on October 22, 1990, for FY 1991. The two reasons
stated in the subcontract modification for selection of the
named consultant were: (1) the consultant was specifically
identified by the customer agency to provide the required
services; and (2) the consultant had performed this service
each year since 1979, and is considered the predominant
expert for the required effort. Our review of earlier
modifications confirmed similar justifications.

     On November 18, 1991, the WINCO Manager, Procurement and
Administrative Services, sent a memorandum to the IDO
contracting officer requesting subcontractor approval for
continuing the services of the consultant for the period
December 1, 1991, through September 30, 1992. Again, the
reasons cited for using this particular consultant were the
same as those in Modification No. 14.

The proposed Modification No. 15 was submitted to IDO for
approval since the purchase order amount of $20,000
exceeded WINCO's current threshold of $5,000 for obtaining
IDO procurement approval for consultant agreements. Prior
to January 8, 1991, WINCO's threshold for obtaining IDO
procurement approval for consultant agreements had been
$30,000. Accordingly, IDO had not reviewed previous
modifications since they were less than the $30,000
threshold.

The IDO contracting officer placed a notation on the WINCO
procurement request, also dated November 18, 1991, denying
approval. The note stated that "This is a poor package.
If you can't get adequate info from [customer], let them
hire their consultant." The signature block area contained
a "not approved" notation. The IDO contracting officer
recalled the November 1991 subcontract request from WINCO.
The IDO contracting officer said that they denied WINCO's
request to use the subcontractor because IDO does not allow
the customer agency to pick the subcontractor. This action
would be a directed subcontract.

The WINCO Manager, Procurement and Administrative Services
stated that the WINCO Program Manager for this WFO project
initiated the request for the consultant subcontract
services. Based on what was provided by the WINCO Program
Manager, WINCO Procurement and Administrative Services
determined that this was an acceptable consultant
subcontract. He did not view it as a directed subcontract.

Conclusion

Contrary to DOE Order 4300.2A guidance on the use of
subcontractors, WINCO and the predecessor M&O contractor
had allowed the customer agency to designate the
subcontracted consultant to be used. Subcontracts (or
modifications) were executed through FY 1991, since they
did not require IDO approval. The FY 1992 subcontract
modification was not executed because IDO would not approve
the "directed subcontract."

     Recommendation

     We recommend that the Manager, Idaho Operations Office:

4.   Direct WINCO and EG&G Idaho to comply with the
provisions of DOE Order 4300.2B by not allowing
customers to direct subcontracts for WFO projects.

     Idaho Operations Office management concurred with
Recommendation 4.


     COMPETITION REQUIREMENTS NOT DOCUMENTED

         IDO files did not contain the required written determination,
by the responsible contracting officer, that this inspected
WFO project would not place DOE in direct competition with
the domestic private or public sectors. Likewise, neither
IDO nor WINCO files contained the required statement that
the customer agency had determined that use of the DOE
facility was in compliance with requirements of the Economy
Act of 1932, or other statutory authorizations. The
propriety of DOE performing work on the customer agency's
WFO project was, therefore, not adequately supported.

     Policy Guidance

     DOE Order 4300.2A, "NON-DEPARTMENT OF ENERGY FUNDED WORK,"
dated December 19, 1986, was current when the WFO project
was last reviewed for acceptance in 1988. The Order stated
that a WFO project can only be undertaken when a
determination has been made and certified in writing by the
responsible contracting officer that the work would not
place the facility in direct competition with the domestic
private or public sectors. The responsible contracting
officer in this case was an IDO contracting officer.

     In addition, the DOE Order also stated that "For all
Federal agencies, other than the Nuclear Regulatory
Commission, a written statement is required stating that
the proponent or requesting agency has determined that
entering into an agreement with DOE for the use of the DOE
facility is in compliance with the requirements of the
Economy Act of 1932, as amended (31 U.S.C. 1535) or other
statutory authorizations. Those statutory authorizations
must be cited." These provisions would apply since the
customer agency was other than the Nuclear Regulatory
Commission.

     Lack of Written Determination by a DOE Contracting Officer

     As previously discussed, IDO, including the Contracts
Management Division, did not maintain complete files on
this WFO project although required to do so by ID Order
4300.2B. Further, IDO officials were not able to provide a
copy of the written determination, by the responsible
contracting officer, that the WFO project would not place
DOE in direct competition with the domestic private or
public sectors as was required by the then DOE Order
4300.2A.

     An IDO official stated that a contracting officer was
involved in 1988 during the review process for acceptance
of the WFO project. However, this contracting officer is
no longer employed at IDO. The IDO official stated that he
was not aware of the particular determination, if any, made
by the contracting officer and did not have a copy of any
of the written determinations required by the then DOE
Order 4300.2A.

     Since the written determination was not available, we were
unable to completely review the propriety of DOE performing
the work for the customer agency.

     Lack of Written Statement from the Customer Agency

     Likewise, neither IDO nor WINCO officials were able to
provide a copy of the required statement from the customer
agency that the customer agency had determined that the use
of the DOE facility was in compliance with the requirements
of the Economy Act of 1932, as amended, or other statutory
authorizations.

     The customer agency's justification, which was on file,
cited WINCO's experience, unique capability in performing
the required analyses, and access to sensitive classified
information. This justification did not satisfy the then
DOE Order 4300.2A requirements as stated above.
     Recommendations

     We recommend that the Manager, Idaho Operations Office:

     5.   Prepare and maintain the written determinations for
this WFO project as required by DOE Order 4300.2B.



     6.   Request the customer agency to provide the required
statement concerning the determination that the use of
the DOE facility was in compliance with the
requirements of the Economy Act of 1932, as amended,
or other statutory authorizations.

     Idaho Operations Office management concurred with
Recommendations 5 and 6.


     PERFORMING WORK IN THE ABSENCE OF FUNDING

     We found that WINCO had incurred costs of approximately
$23,000 on the inspected WFO project in October 1988,
before funding was made available in November 1988. In
December 1991, WINCO continued work after funds were
exhausted and incurred costs of approximately $18,000 prior
to additional funds being transmitted to WINCO in January
1992. These actions were contrary to the then DOE Order
2200.6, Change 2, Chapter IX, and its predecessor DOE Order
2100.10A, which stated that no work should commence and no
costs were to be incurred until a written reimbursable
agreement had been received and such document was approved
and accepted as defined in DOE Order 4300.2A (predecessor
to 4300.2B).

     Funding Reimbursable Agreements

     The then DOE Order 2200.6, Change 2, Chapter IX, Paragraph
2.d.(2), and its predecessor DOE Order 2100.10A, stated
that no work should commence and no costs were to be
incurred until a written reimbursable agreement had been
received and such document was approved and accepted as
defined in DOE Order 4300.2A (predecessor to 4300.2B).
Both Orders also stated that reimbursable agreements
accepted by DOE for reimbursable work should be managed and
accounted for in accordance with the funding limitations of
the reimbursable agreement.

Further, Paragraphs 2.i.(1)(d) and (e) stated:

"No work shall continue and no costs shall be
incurred beyond either the period of performance
or the amount of funding provided in the
reimbursable agreement and attendant
modifications. . . . In summary, it is a
violation of statutory, OMB, and DOE policies
and procedures to perform reimbursable work in
excess of or in absence of budgetary resources.
. . . DOE shall not finance reimbursable work
from its own appropriations or another
customer's funds but only from the appropriation
accounts of the ordering Federal agency or the
cash advances from the non-Federal entity."

     Costs Charged Before Funds Received

     According to WINCO personnel, work on this WFO project was
originally initiated in 1972. We were further told that
this WFO project was most recently reaccepted as a new WFO
project in 1988 for the five year period Fiscal Years 1989
through 1993. When we reviewed the available files at both
IDO and WINCO, we did not find written documentation that
IDO had considered the criteria contained in the then
current DOE Order 4300.2A, for acceptance of the WFO
project.

     The first funding document sent to DOE by the customer
agency was dated October 11, 1988. The Idaho Operations
Office had a copy of the funding acceptance dated
November 4, 1988.

     IDO normally notifies WINCO of funding acceptance when the
contracting officer accepts and provides WINCO with a
monthly financial plan which reflects the funding document
number and amount. WINCO provided us with a copy of the
November 1988 Financial Plan which showed inclusion of the
applicable funding.

     We obtained a copy of the WINCO FY 1989 Trial Balance
Listing for the month of October 1988, dated November 18,
1988, to determine if WINCO had spent money for the current
contract in the month before the DOE contracting officer
had signed acceptance. WINCO did spend $22,916 in October
1988 for the current contract.

     Also, the initial letter for the start of the current
contract for this project outlined the delivery schedule.
The letter stated "It is essential that services be
initiated on 1 Oct 88 to insure the continuation of INEL's
[Idaho National Engineering Laboratory's] contributions to
the . . . ." As we previously pointed out, the first
funding document provided by the customer agency was dated
October 11, 1988.



Based on the timing of the WINCO costs and the IDO
contracting officer's signature, we determined that WINCO
began work in advance of receiving funds from the customer
agency.

     Costs Charged After Funds Exhausted

     We also reviewed funding documents and WINCO costs to
determine if WINCO had continued work after funding was
exhausted. In reviewing accounting adjustments made during
the September 1991 - October 1992 test period, we noted an
accounting adjustment of $17,706 in December 1991 and a
reversal of the adjustment in January 1992. Funding
balances for the project were exhausted in December 1991,
so WINCO charged the $17,706 to a holding account until
additional funds were accepted.

Even though WINCO continued work when funding was
exhausted, the funding document, dated October 8, 1991, by
the customer agency, had been received by IDO and was in
the acceptance process when WINCO spent the funds. The IDO
contracting officer signed the funding document acceptance
on December 27, 1991. However, the additional funds were
documented in the Department of Energy Idaho Operations
Office Financial Plan received by WINCO in January 1992.

     Conclusion

     The then DOE Order 2200.6, Change 2, Chapter IX, Paragraph
2.d.(2), and its predecessor DOE Order 2100.10A, stated
that no work should commence and no costs were to be
incurred until a written reimbursable agreement had been
received and such document was approved and accepted as
defined in DOE Order 4300.2A (predecessor to 4300.2B).
Before the current contract funding document was accepted
in November 1988, WINCO had incurred costs in October 1988.
In December 1991, WINCO continued work after funds were
exhausted and prior to additional funds being transmitted
to WINCO in January 1992.

     Recommendation

     We recommend that the Manager, Idaho Operations Office:

     7.   Direct WINCO to comply with DOE Order 2200.6A, Chapter
IX, by not commencing work in advance of funds receipt
nor continuing work after funds are exhausted.

Idaho Operations Office management concurred with
Recommendation 7.


     REQUIRED USE OF ON-LINE TRANSFER PAYMENTS FOR WORK-FOR-OTHER
FEDERAL AGENCIES BILLINGS

     DOE Order 2200.6A (successor to 2200.6), "FINANCIAL
ACCOUNTING," Chapter IX, "REIMBURSABLE WORK, REVENUES
AND OTHER COLLECTIONS," Paragraph 2.i.(3)(a), states
that "Approved Treasury forms or the Treasury's
On-Line Payment and Collection System must be used for
expenditure transfers between DOE and other Federal
agencies."

     During our inspection at the DOE Idaho Operations Office,
we noted that the customer agency paid monthly invoices
using a U.S. Treasury check, rather than on-line transfer
payments. We also noted in our previous review of selected
intelligence and special access program work-for-others
projects that customer agencies made payment by U.S.
Treasury check.

     A DOE official in the Office of Headquarters Accounting
Operations stated that DOE and other specified Federal
agencies have the capability to make or receive payments
without writing a U.S. Treasury check through the On-Line
Payment and Collection System. The DOE official stated
that OPAC can be utilized if the disbursing center used by
a particular customer agency has that capability.

     In accordance with the then DOE Order 2200.6, Chapter IX,
Paragraph 2.i.(2)(c), IDO had assigned receivable and
collection activities to WINCO for reimbursable work
performed by WINCO. An official with the U.S. Treasury
Department verified that DOE, and DOE contractors that have
been assigned billing responsibility, can accept other
Federal agency payments via OPAC. The Treasury official
reconfirmed that on-line transfer payments can only be
received from those other Federal agencies that have OPAC
capability. The Treasury official stated that a decision
on whether a Federal agency pays another Federal agency via
OPAC is a decision between the Federal agencies involved.
     However, the Treasury Department encourages the use of OPAC.

     Since we did not verify whether the reviewed customer
agencies' disbursing centers had OPAC capability, payment
by U.S. Treasury checks may have been the only means
available. We believe, however, that DOE should require
other Federal customer agencies with this capability to
provide payments using OPAC. The use of on-line transfer
payments would make the payment process faster, and in our
view, save administrative time and expense. Manually
recording the receipt of the U.S. Treasury check and
depositing the checks in a local financial institution
would no longer be necessary if OPAC was used. On-line
transfer payments would also reduce the likelihood of
fraudulent attempts to cash lost or misplaced checks.

     Recommendation

     We recommend that the Chief Financial Officer:

     8.   Revise DOE Order 2200.6A, Chapter IX, to require
work-for-other Federal agencies with On-Line Payment
and Collection System capability to pay DOE invoices
via the System, in lieu of sending U.S. Treasury
checks.

     The Director, Office of Compliance and Audit Liaison,
concurred with this recommendation. The Director stated
that the Chief Financial Officer will amend the Order
during the Department's 50 percent Directives Reduction
Project, to state that the Treasury's On-Line Payment and
Collection System should be used when available for
expenditure transfers between DOE and other Federal
agencies.
     NOTED INTERNAL CONTROL WEAKNESSES

     Notwithstanding requirements for effective systems of
management control, we identified areas where internal
controls were not working as intended. It should be noted
that our review of internal controls was limited to those
related to the reviewed transactions as described in
Section II of this report. Because our review was limited,
it would not necessarily have disclosed all internal
control deficiencies that may have existed.

         Systems of internal control include the plan of organization
and methods and procedures adopted by management to ensure
that resource use is consistent with laws and regulations;
that resources are safeguarded against waste, loss, and
misuse; and that reliable data are obtained, maintained,
and fairly disclosed in reports. Adequate internal
controls are essential to achieving management and program
goals and to providing for full accountability over the
available resources. Internal controls help to achieve the
positive aims of management and assist in preventing
negative consequences from occurring.

During the time period we reviewed during this inspection,
WINCO operated specified INEL facilities under Contract
DE-AC07-84ID12435. Clause 95 (Management Controls) of this
contract required WINCO to ". . . be responsible for
maintaining, as an integral part of its organization,
effective systems of management controls for both
administrative and programmatic functions . . . . The
systems of control employed by the contractor shall be
documented and satisfactory to DOE."

     Funding Transmittal Did Not Identify Other Equipment Funds

     The then DOE Order 2200.6, Change 2, Chapter IX, provided
guidance on accounting for reimbursable agreements. The
Order stated in Paragraph 2.i. that "Title 31, section
1301, of the United States Code expressly prohibits the
expenditure of funds in an appropriation or appropriation
account for purposes other than those that Congress
intended." The Order also provided that this limitation
applied equally to the execution of DOE mission programs
and to the performance of reimbursable work for other
Federal agencies. Further, the Order continued that it was
imperative that DOE employ prudent management and control
techniques to ensure that reimbursable work was authorized,
performed, and accounted for in accordance with

congressional, Office of Management and Budget, General
Accounting Office, and DOE budgeting and accounting
policies and procedures.

IDO procedure is to differentiate between operations and
maintenance funds (money used to perform the work) and
procurement funds (capital investment money for equipment)
on the funding transmittal forwarded to the M&O contractor.
However, in November 1990, procurement funds to be used for
equipment totaling $450,000 were accepted by IDO without
being separately identified as funds for equipment on the
funding transmittal. As a result, there was the risk of
this procurement funding being used as operations and
maintenance funding.

While IDO did not identify the procurement funds in this
one instance, WINCO properly spent the funds on equipment.

     Timesheet Changes

     INEL Guidelines, "Time and Attendance Reporting," states
that "Corrections to Time Reports must be made by crossing
out the incorrect charge number, leave code or hours and
inserting the correct charge number, leave code or hours.
No erasures or 'white outs' are allowed. All corrections
must be initialed by both the employee and supervisor."

EG&G Idaho was providing labor services to this WFO
project. Included in our review of EG&G Idaho labor
charges were three timesheets which contained either white
out changes or other pen changes without the employees'
initials as required.

     Updating ID Order 4300.2B

ID Order 4300.2B, "Non-DOE Funded Work," dated February 12,
1990, needs to be updated. The Order still states that (1)
Federal agencies do not pay the Departmental added factor
and (2) the Contracts Management Division is responsible
for WFO processing and files maintenance.

In memoranda dated January 22 and March 22, 1990, the DOE
Controller, subsequently designated the Acting Chief
Financial Officer, provided guidance on the implementation
of a Departmental "Added Factor Rate" for other Federal
agencies of 3.2 percent which was to be implemented for FY
1992. The Departmental added factor rate was in fact
implemented and was applicable to all WFO Federal agencies
unless a waiver was granted. ID Order 4300.2B still
states, "No DOE added factor or facility depreciation are
charged to other Federal Agencies; however, some support
costs may be charges (sic) as directed by ID."

The Department of Energy Idaho Field Office "Work for Other
Guidelines," DOE/ID-10186 Rev. C, issued in December 1992,
states that "WFO project files will be maintained
throughout the life of the project by DOE-ID/SPB [Special
Programs Branch] and will be stored for 3 years following
close out of the project." ID Order 4300.2B still requires
the Contract Management Division Director or Designee to
maintain information on each work-for-others project in
sufficient detail to facilitate status reports per DOE
Order 4300.2A, Attachment 2.

     Recommendations

     We recommend that the Manager, Idaho Operations Office:

     9.   Direct WINCO and EG&G Idaho to review internal
controls for the areas cited and take necessary
actions to strengthen internal controls.

     10. Update ID Order 4300.2B to reflect implementation of a
Departmental added factor rate and the responsibility
of the Special Programs Branch to maintain WFO project
files.

     Idaho Operations Office management concurred with
Recommendations 9 and 10.


     INSUFFICIENT INVOICE DETAIL

     During our review of Standard Form 1080 (SF 1080) billings
for this WFO project, we identified a lack of billing
detail similar to that noted in our previous inspection of
six WFO projects. In the previous inspection, we discussed
billings with two customer agencies. Agency officials were
concerned about the lack of detailed information on
SF 1080 billings received from DOE or DOE M&O contractors.
The customers stated that the bills often contained little
or no information under the Item or Description of Services
section and only a one-line entry for the amount billed.
     Project Billings

     Per DOE Order 2200.6 (predecessor to 2200.6A), Paragraph
2.i.(2)(c), the cognizant DOE field element could assign
all collection and accounting activities for the work to
the performing M&O contractor. Otherwise, the M&O
contractor transfers the amount to be billed to DOE
accounts, and the DOE field element performs the receivable
and collection activities. In accordance with DOE Order
2200.6, IDO had, in November 1991, assigned receivable and
collection activities to WINCO for reimbursable work
performed by WINCO.

DOE Order 2200.6A (and 2200.6), Chapter IX, Paragraph
2.i.(3)(a) states that "Approved Treasury forms or the
Treasury's On-Line Payment and Collection System must be
used for expenditure transfers between DOE and other
Federal agencies." For the project we inspected, Standard
Form 1080 (Voucher for Transfers Between Appropriations
and/or Funds) was being used for this purpose.

Under the Description of Services section of completed SF
1080s, WINCO listed only the title of the WFO project in
the Item or Description of Service section of the completed
Standard Form 1080. There was also a one-line entry for
the WINCO's current cost as well as a one-line entry for
the applicable DOE added factor. The cost amount and the
DOE added factor was added to arrive at the total amount
billed.

     Policy on Information to be Contained in DOE Billings

     DOE Order 2200.6A, which contains the DOE financial
management policies and procedures, does not provide
guidance on the level of detail required for DOE billings.
Paragraph 2.i.(3)(d) states only that "Billings based upon
accrued and recorded costs will be issued monthly or in
accordance with reimbursable agreements and will include
the date that goods and services were provided, in addition
to the 'as of' billing date."

     Department of Energy Acquisition Regulation (DEAR) Subpart
917.5 prescribes DOE procedures when DOE obtains
interagency acquisitions under the Economy Act of 1932.
DEAR Subpart 917.505-71 discusses cost reimbursement
standards. Cost reimbursement standards include direct and
indirect costs. The DEAR also provides examples (or major
elements) of direct costs that can be directly identified
and so presumably should be included on bills received for
payment by DOE. These examples include salaries and wages,
technical services, materials, travel, transportation, and
communications.

     We believe that each DOE billing activity should provide
billing detail on SF 1080 when DOE performs services for a
customer agency. A reasonable base for use would appear to
be the level of detail expected, as discussed in the DEAR,
when other Federal agencies render a billing to DOE.

     Recommendation

     We recommend that the Manager, Idaho Operations Office:

     11. Direct WINCO to provide cost detail at the major
elements level to reimbursable work customers when
rendering Standard Form 1080 billings.

     Idaho Operations Office management concurred with
Recommendation 11.


     INTELLIGENCE ACTIVITY IN CONJUNCTION WITH FOREIGN TRAVEL

     A WINCO employee of the DOE Field Intelligence Element
attended a foreign conference during September 1992. The
conference agenda, which included biographical information
on U.S. persons, was enclosed with the employee's trip
report. This information was retained and later
disseminated by personnel at IDO and the then Office of
Intelligence. We believe these actions were technically
not in compliance with Executive Order 12333, "United
States Intelligence Activities."
     Before departing on foreign travel, the WINCO employee
received security and counterintelligence briefings. Both
briefings emphasized defensive matters and neither
addressed Executive Order 12333 requirements or DOE/IN
procedures relating to restrictions on intelligence
collection activities.

     Retention and Dissemination of Information on United States
Persons

     A WINCO employee of the DOE Field Intelligence Element
attended a foreign conference during September 1992. Cost
of the employee's travel was funded by the inspected WFO
project. The conference agenda, which contained
information concerning certain U.S. persons, was retained
and subsequently included in the employee's trip report,
dated December 14, 1992. The information included the
designation of the American society which co-sponsored the
meeting; the names and addresses of two United States
attendees contacted at the conference; and the identity of
two business entities established within the United States.

     The trip report was later disseminated by personnel at IDO
and the then Office of Intelligence. We believe retention
and dissemination of the information concerning United
States persons was contrary to Executive Order 12333 since
the employee and the trip were governed by the Executive
Order and, at the time the compiled information was
retained, the Department lacked the required procedures.

     In a report issued in May 1992, the Office of Inspector
General reported that DOE did not have procedures for the
collection, retention, and dissemination of information
regarding United States persons as required by Executive
Order 12333. We recommended that the Director of the then
Office of Intelligence prepare intelligence procedures
which, after approval by the Secretary, were to be
submitted to the Attorney General for approval in
accordance with Executive Order 12333. The required DOE
Procedures for Intelligence Activities were approved by the
Attorney General in October 1992. (Per an official of the
then Office of Intelligence, these DOE/IN procedures,
although unapproved, were in near final form and were
issued as interim guidance on May 23, 1992.)

     Since the foreign travel occurred during September 1992,
before the required procedures were effective, we believe
there was technical noncompliance with the requirements of
Executive Order 12333. Assuming the DOE Procedures for
Intelligence Activities are complied with, future retention
and dissemination of information of this type will not be
contrary to the Executive Order.

     Information Provided to the Employee on Executive Order
12333 and DOE Requirements

     We reviewed information provided to the WINCO employee
concerning Executive Order 12333 and DOE security
requirements. Before departing on foreign travel, the
employee received a security briefing from the WINCO
Safeguards and Security Office and a counterintelligence
briefing from appropriate IDO officials. We were told that
both briefings emphasized defensive matters and neither

addressed the requirements of Executive Order 12333 nor
DOE/IN procedures relating to restrictions on intelligence
collection activities.

     We believe that failure to provide information on
requirements of Executive Order 12333 or DOE/IN procedures
prior to travel was inconsistent with policy established by
the Director of the then Office of Intelligence. In order
to comply with the provisions of the Executive Order and
the DOE/IN procedures, a traveler must be aware of the
content of these documents.

     An official from the then Office of Intelligence stated
that a training program had been initiated to train
individuals, covered by Executive Order 12333 and the then
draft DOE Procedures for Intelligence Activities, on the
provisions of these documents. However, it was not
possible to immediately train all individuals.

     Until all covered individuals are trained, we believe that
individuals who have not been trained, but who will
undertake foreign travel governed by Executive Order 12333
and the DOE/IN procedures, should be identified and
provided with some form of interim briefing.

     Recommendation

     We recommend the Director, Office of Energy Intelligence:

     12. Until all individuals, who require training on
provisions of Executive Order 12333 and the DOE
Procedures for Intelligence Activities, have received
training under the established program, provide an
adequate form of interim briefing for personnel who
will be undertaking foreign travel but who have not
otherwise received the appropriate training.

     Office of Energy Intelligence officials concurred with the
recommendation. They stated that "Field management,
Special Security Officers, and Counterintelligence Officers
have been trained in Executive Order 12333 to act as agents
in providing special briefings to personnel who will be
undertaking foreign travel but who have not received the
appropriate training."
     USE OF ADDITIONAL SECURITY PROCEDURES FOR THE PROTECTION OF
CLASSIFIED INFORMATION

     We found that certain classified portions of the inspected
WFO project involved the use of security procedures usually
only permitted with a special access program. The security
procedures in use included the use of a separate
"Briefing/Debriefing Statement" which, as part of the
indoctrination acknowledgment, referred to "this special
access program information." A by-name access roster was
also maintained by the security officer.

     We believe the use of additional security procedures,
including special statements and access lists, was not
consistent with normal DOE security procedures. In our
opinion, an unofficial SAP had been created with the
knowledge of certain IDO officials, but without proper
written authority as required by Executive Order 12356.

     Classification Authorities

     The authority for DOE to classify National Security
Information is provided by Executive Order 12356, "National
Security Information." The Executive Order also permits
the agency head, in this case the Secretary, to create
SAPs. Section 4.2, Special Access Programs, of Executive
Order 12356 states that:

"Agency heads . . . may create special access
programs to control access, distribution, and
protection of particularly sensitive information
classified pursuant to this Order or predecessor
orders. Such programs may be created or
continued only at the written direction of these
agency heads. For special access programs
pertaining to intelligence activities (including
special activities but not including military
operational, strategic and tactical programs),
or intelligence sources or methods, this
function will be exercised by the Director of
Central Intelligence. . . .

"Each agency head shall establish and maintain a
system of accounting for special access
programs." (emphasis added)




     32 Code of Federal Regulations (CFR) 2001.70(f), Special
Access Program, published by the Information Security
Oversight Office, describes the characteristics of SAPs.
The CFR states that:

     "Such a program may include, but is not limited
to, special clearance, adjudication, or
investigative requirements, special designations
of officials authorized to determine
'need-to-know,' or special lists of persons
determined to have a 'need-to-know.'"

     Similarly, DOE Order 5635.1A, "CONTROL OF CLASSIFIED
DOCUMENTS AND INFORMATION," dated February 12, 1988,
defines a SAP as:

"Any program imposing need-to-know or access
controls beyond those normally provided . . . .
Such a program may include, but is not limited
to, special clearance, adjudication, or
investigative requirements, special delegations
of officials authorized to determine
need-to-know, or special lists of persons
determined to have a need-to-know."

     Within DOE, a basic criteria for access to classified
information is a "need-to-know." For example, the stated
purpose of DOE Order 5635.1A is:

          "To provide uniform standards and operating
procedures for safeguarding and controlling
classified documents and information, to ensure
that classified documents are furnished only to
authorized personnel on a 'need-to-know' basis,
and to prevent loss or compromise of classified
information."

     Certain portions of the unofficial SAP concerned the
protection of information in the Restricted Data (RD)
classification category. DOE classifies such information
under the authority of the Atomic Energy Act of 1954, as
amended. In certain cases, DOE procedures prescribe the
use of methods to control access authorization beyond those
normally used for National Security Information (NSI). In
other cases, DOE uses a formal record of briefing on the
purpose and significance of the program, as in the
Personnel Assurance Program. However, special security
briefing statements and access lists are not normally used
by DOE for the purpose of controlling access to NSI
classified under the authority of Executive Order 12356.

     Security Procedures In Use

     At WINCO, we found that security procedures, beyond those
normally used within DOE for the protection of
classified information, were being used to protect the
WFO project's classified information. The security
procedures in use included the use of a separate
"Briefing/Debriefing Statement" which, as part of the
indoctrination acknowledgment, referred to "this
special access program information." Only designated
officials could approve indoctrination into the
unofficial SAP.

A by-name access roster for this unofficial SAP was
maintained by the security officer. When a person is
provided with program information, he or she is given
a security briefing regarding security requirements
and, after signing a security agreement, is considered
to be "read-on" to the special access program. An
access roster, or a list of those "read-on" to a
specific special access program, is often maintained
by personnel managing the SAP.

     IDO and WINCO officials we interviewed were unable to
provide written approval of the SAP or the security
procedures, which were characteristic of a SAP, being
used. Since they were "read-on," a limited number of
IDO officials were aware of the use of these security
procedures, that WINCO referred to the WFO project as
a SAP, and that a code name was in use for the
unofficial "special access program."

     Several IDO and WINCO officials told us that additional
security procedures had been in effect as long as they had
been associated with the WFO project. The officials stated
that they believed the customer agency had requested the
use of these procedures; however, they had no written
record and the request may have been made orally.

     DOE Lacks Procedures to Approve Special Access Programs

     Neither DOE 5635.1A, nor any other DOE policy document that
we have been provided, contains procedures on how to create
a SAP, regardless of whether the SAP would be created under
the classification authority of Executive Order 12356 or
the Atomic Energy Act of 1954, as amended.

Authority to create a SAP under the provisions of Executive
Order 12356 are contained in draft DOE Order 5639.1,
Information Security Program. However, the draft order
does not contain procedures on how to establish a SAP under
Executive Order 12356. Additionally, the draft DOE Order
5639.1 does not contain any authority or procedures to
establish a SAP under the classification authority of the
Atomic Energy Act of 1954, as amended. (At the conclusion
of our field work in May 1993, DOE Order 5639.1,
Information Security Program, had not been published.)

     Conclusions

     We believe the use of additional security procedures,
including access lists and special "read-on" statements,
was not consistent with normal DOE security procedures.
The use of such security procedures was more appropriate to
a SAP, and gives the appearance that, contrary to Executive
Order 12356, an unofficial SAP had been created. A SAP to
protect NSI should be approved in writing as required by
Executive Order 12356.

Recommendations

We recommend that the Director, Office of Nonproliferation
and National Security:

13. Include procedures on establishing special access
programs for information classified under Executive
Order 12356 in draft DOE Order 5639.1, which deals
with the information security program and SAPs.

14. Include the authority for and procedures on
establishing special access programs for information
classified under the Atomic Energy Act of 1954, as
amended (e.g., Restricted Data, Formerly Restricted
Data) in draft DOE Order 5639.1.
15. If necessary, issue interim procedures on establishing
special access programs for information classified
under Executive Order 12356 or the Atomic Energy Act
of 1954, as amended.

Office of Security Affairs officials concurred with
Recommendations 13 through 15. Management officials stated
that the draft Departmental Order 5639.1, "Information
Security Program," will address the procedures for
creating, approving, or accepting other Federal agency
special access programs. The draft revision will also
address procedures for creating and approving Atomic Energy
Act-related special access programs. Procedures are being
developed by the Special Access Program Oversight
Committee, convened by the Under Secretary. Management
officials further stated that draft Departmental Order
5639.1 should be published by the end of the First Quarter,
Fiscal Year 1995.

We recommend that the Manager, Idaho Operations Office:

16. Review the security requirements of the WFO project
and other related classified information to determine
if the security procedures associated with a SAP are
required. If the security procedures associated with
a SAP are appropriate, submit a written request for
approval to create a SAP to the Director, Office of
Nonproliferation and National Security. If the
security procedures associated with a SAP are not
appropriate, direct that their use be discontinued.

Idaho Operations Office management officials concurred with
Recommendation 16. These officials further commented that
the use of the phrase "this special access program" on the
briefing/debriefing form was an unfortunate use of
terminology and was not intended to imply the controls and
characteristics described in 32 CFR 2001.70(f). Management
officials continued that use of the briefing/debriefing
forms will be discontinued to avoid confusion between a
program that has a very limited need-to-know access
requirement and a formal SAP. Other appropriate written
documentation of the need-to-know requirement will be
developed to fulfill the program's administrative needs.

We believe, however, that the use of the term "special
access program information" on the briefing/debriefing form
was not simply an "unfortunate use of terminology." As
stated in the report, many of the controls and

characteristics described in 32 CFR 2001.70(f) were in fact
in place (e.g., designated officials to approve
indoctrination, a very limited access roster).

In our view, there may be some cause for concern in those
portions of management's response which states "very
limited need-to-know" and "Other appropriate written
documentation of the need-to-know requirement will be
developed to fulfill the program's administrative needs."
By indicating that the project has "a very limited
need-to-know" and that other "written documentation of the
need-to-know requirement will be developed," we believe
that management is suggesting that the program does require
need-to-know or access controls beyond those normally
provided by DOE security procedures. If this is the case,
then establishing a Special Access Program in accordance
with the authorities cited in the report would be
appropriate.


     AVAILABILITY OF TRAINING ON EXECUTIVE ORDER 12333 AND THE
DOE PROCEDURES FOR INTELLIGENCE ACTIVITIES

     We found that IDO and WINCO program and security management
officials concerned with this intelligence project had not
received required training on the provisions of Executive
Order 12333 or the "Department of Energy Procedures for
Intelligence Activities." We also noted that the then DOE
Office of Intelligence was planning a program of
centralized training for a relatively large number of
personnel from several sites. In our view, this may not be
the most cost-effective means of training, and may cause
additional delays in providing the required training.

     Requirements for Training Programs

     DOE Order 5670.1A, "MANAGEMENT AND CONTROL OF FOREIGN
INTELLIGENCE," was effective January 15, 1992. The
Director of the then Office of Intelligence was assigned
responsibility to develop professional and specialized
training programs for persons involved in intelligence or
intelligence related activities.

Activities were established by the then Secretary of Energy
and were approved by the Attorney General in October 1992.
These procedures state that each DOE Intelligence Component
shall familiarize its personnel with the provisions of
Executive Order 12333, the DOE procedures, and any

implementing instructions. The Director of the then Office
of Intelligence should ensure that training is conducted to
achieve the required familiarity.

     Training on Intelligence Procedures

     We interviewed IDO and WINCO officials concerned with this
intelligence WFO project. Some of the officials were
responsible for detailed management of the WFO project
operations, as well as other intelligence activities.
Other officials were responsible for oversight of the WFO
project and other intelligence activities.

     At the time of completion of our on-site field work in May
1993, only one official stated that he had received DOE
training on the provisions of Executive Order 12333,
"United States Intelligence Activities." The same
individual also stated that training on the then draft DOE
Procedures for Intelligence Activities had been received as
part of a course he had attended.

     We found that the DOE Field Intelligence Element at the
management and operating contractor did not have a copy of
the October 1992 "Department of Energy Procedures for
Intelligence Activities" to which they could make
reference. The IDO Intelligence WFO Coordinator stated
that he had informally distributed the procedures when they
had been received. WINCO program and security management
officials stated that, although they had seen the
procedures, they had not retained a copy for reference. As
a result of our inquiry, the DOE Field Intelligence Element
obtained a copy of the procedures.

     The interviewed officials also told us that the then Office
of Intelligence had recently established a schedule of
training on Executive Order 12333 and the DOE Procedures
for Intelligence Activities. The officials stated that the
three hour course was to be centrally presented. The
officials stated that they were in the process of
identifying attendees and reporting to the then Office of
Intelligence.

We noted that the DOE Procedures for Intelligence
Activities state that:

          "A. Unless specified otherwise, these Procedures
apply to all activities, in the United
States or abroad, relating to the
collection, retention, or dissemination of
foreign intelligence and counterintelligence
information, and any other activities
authorized by E.O. 12333. These Procedures
also apply to all DOE Management & Operating
(M&O) contractors, their subcontractors and
employees engaged in intelligence-related,
non-DOE funded work, including:

               - Work sponsored by an organization
identified in E.O. 12333 as an intelligence
component; or

               - Work funded by either the National Foreign
Intelligence Program (NFIP) or the Tactical
Intelligence and Related Activities (TIARA)
Program; or
               - Work for which the cognizant technical DOE
Headquarters official is the [then] Director
of Intelligence."

     The then Office of Intelligence reported to the Office of
Inspector General that there are at least 386 Intelligence
WFO projects within the purview of DOE. We believe that
the appropriate training must be provided to a sizeable
number of personnel across the DOE complex. In our view, a
program of centralized training for the apparently large
number of personnel from several sites may not be the most
cost-effective means of training, and may cause significant
additional delay in providing the required training.

     Recommendations

     We recommend that the Director, Office of Energy
Intelligence:

     17. Review current plans for the training program related
to Executive Order 12333, the "Department of Energy
Procedures for Intelligence Activities," and other
implementing instructions. Provide the required
training to identified attendees on an expedited and
cost-effective basis.

     18. Confirm that DOE Field Intelligence Elements and
others covered by the "Department of Energy Procedures
for Intelligence Activities" have received the
procedures and have them available for reference.


     The Director, Office of Energy Intelligence, concurred with
Recommendations 17 and 18. The Director agreed that
training should be provided on an expedited and
cost-effective basis, and stated that the Office would
continue to review and modify the training program to
ensure this result. The Director cited several training
sessions already provided and stated that current plans
call for training at field intelligence elements engaged in
intelligence-related WFO.

The Director stated that copies of "Department of Energy
Procedures for Intelligence Activities" have been placed in
all Departmental Field Intelligence Elements and personnel
copies have also been distributed during training sessions.


     CLASSIFICATION OF INFORMATION REGARDING THE ASSOCIATION OF
THE CUSTOMER AGENCY WITH INTELLIGENCE ACTIVITIES

     In a memorandum dated November 19, 1992, the then Office of
Intelligence provided additional classification guidance
for this WFO project regarding information on the
association of the customer agency and intelligence
activities. In addition to the general classification
guidance, the memorandum noted that, if certain document(s)
prepared at DOE Headquarters were filed with the funding
document received from the customer agency, combination of
the two documents should be marked with the appropriate
security classification and category.

     During our review of unclassified files at both IDO and
WINCO, the specified combination of documents was found.
The documents had not, in either case, been appropriately
marked for security classification. At both locations, we
were told that the files had been stored in an approved
security container inside a secure area and, indeed, we
reviewed the files in a secure area.

     At IDO, we also found a one page document which contained
both information elements identified in the
November 19, 1992, memorandum as requiring security
classification and category when combined. We believe this
was significant since it confirmed that the two information
elements for making the classified association could be
contained in a single document. While the document was
reviewed in a secure area, it had not been marked with the
appropriate classification and category.


     At both IDO and WINCO, management and security personnel
were aware of the November 19, 1992, memorandum, and the
classification guidance instructions. The IDO document
custodian stated that they had planned to review, and
remark as appropriate, the WFO project documents as they
were used or were to be sent out of the secure area in
which they were normally stored. WINCO officials stated
that, due to the large volume of documents in their files,
they had planned to properly mark the documents as they
were identified.

     The WFO project files maintained at the then Office of
Intelligence, IDO, and WINCO also contained a
"Classification Guide Summary" attached to a customer
agency memorandum dated March 9, 1993. Under the element
"ASSOCIATION" the summary stated "Unclassified." Based
upon the classification guidance contained in the November
19, 1992, memorandum from the then Office of Intelligence,
we believe that the "Classification Guide Summary" was
incorrect in stating that the association was
"Unclassified."

     Recommendations

     We recommend that the Director, Office of Energy
Intelligence:

19. For the WFO project inspected, direct the review, in
conjunction with the customer agency, of the project's
"Classification Guide Summary" to determine the
correct entry in that portion of the summary dealing
with "Association."
     20. Notify the DOE recipients of the inspected WFO
project's "Classification Guide Summary" of the
correct classification of information regarding
association.

     The Director, Office of Energy Intelligence, concurred with
Recommendations 19 and 20.

     Concerning Recommendation 19, the Director commented that
the sponsoring organization was contacted and did confirm
that the "Classification Guide Summary" was correctly
marked. The sponsor was also reminded of the requirement
to provide WINCO with complete written project
classification guidance.


     With regard to Recommendation 20, the Director stated the
Office of Energy Intelligence had contacted IDO and WINCO
to ensure complete understanding of this association.

     We recommend that the Manager, Idaho Operations Office:

     21. Ensure that documents containing the two information
elements for making the classified association be
appropriately marked for security classification by
IDO and WINCO.

     Idaho Operations Office management concurred with
Recommendation 21.


     RELEASE OF CLASSIFIED RESTRICTED DATA INFORMATION TO AN
EMPLOYEE OF ANOTHER GOVERNMENT AGENCY

     DOE Order 5635.1A, "CONTROL OF CLASSIFIED DOCUMENTS AND
INFORMATION," states that:

"Restricted Data may be furnished to employees of
other Government agencies only upon the basis of
certification in writing by, or in the name of,
authorized officials of the agency requesting
the information. Each certification shall . . .
include: verification of appropriate security
clearance for each person; a statement that each
person needs and is authorized access to the
reports in the performance of official duties;
and a statement that the common defense and
security will not be endangered by the access to
be granted."

     The FY 1992 Annual Report for this WFO project had a
classification level of SECRET and a classification
category of RESTRICTED DATA. In November 1992, a copy of
this report was mailed to a named employee of the customer
agency.

However, neither IDO nor WINCO program or security
management officials had obtained the required
certification for the named person of the other government
agency. Based upon our inquiry, the security manager for
the WFO project subsequently requested and received the
required written certification from the customer agency.



     Recommendation

     We recommend that the Manager, Idaho Operations Office:

     22. Emphasize to WINCO the need, prior to furnishing
Restricted Data to employees of other Government
agencies, to obtain the required certifications
specified in DOE Order 5635.1A.

     Idaho Operations Office management concurred with
Recommendation 22.
